       DEPARTMENT OF HEALTH & HUMAN SERVICES                                 Office of Inspector General

                                                                             Washington, D.C. 20201




January 12, 2010

TO:	           Thomas R. Frieden, M.D., M.P.H.
               Director
               Centers for Disease Control and Prevention


FROM:          	/Daniel R. Levinson/
               Inspector General


SUBJECT:	 Review of the Centers for Disease Control and Prevention’s Compliance With
          Appropriations Laws and Acquisition Regulations—Contractor A
          (A-04-08-01059)


The attached final report provides the results of our review of the Centers for Disease Control
and Prevention’s (CDC) compliance with appropriations laws and acquisition regulations. Like
other Federal agencies, CDC is required to follow appropriations laws and the Federal
Acquisition Regulation (FAR) when acquiring services with appropriated funds.

This audit, initiated as a result of a congressional request, is the first in a series of audits of CDC’s
contracting practices. It focuses on a 2003 service contract awarded to a small business referred to
as “Contractor A.” Under the contract, CDC awarded to Contractor A 149 task orders totaling
$106 million from 2003 to 2008. Our review covered eight task orders for severable services,
which were valued at $18.9 million and required an estimated 110 contractor personnel.

Our objective was to determine whether CDC’s service contract and selected task orders
awarded to Contractor A complied with appropriations laws and acquisition regulations with
respect to competition, inherently governmental functions, pricing, personal services, and
contract funding.

CDC’s service contract and eight sampled task orders awarded to Contractor A complied with
appropriations laws and acquisition regulations with respect to competition, inherently
governmental functions, and pricing. However, the task orders did not always comply with
appropriations laws and acquisition regulations with respect to personal service contracts and
contract funding. Specifically, CDC inappropriately administered all eight task orders as
personal service contracts. Additionally, for six of the eight task orders, CDC extended the
performance periods for severable services beyond 1 year without the statutory authority to do
so. These deficiencies occurred because CDC’s policies and procedures were not adequate to
ensure compliance with the prohibition on contracting for personal services and did not address
funding requirements for severable service contracts.
Page 2 – Thomas R. Frieden, M.D., M.P.H.


By using contractor personnel for personal services, CDC violated the FAR, which states that
obtaining personal services by contract circumvents civil service laws that require Government
employees to be hired through competitive appointment or other required procedures unless
Congress has authorized an exception. CDC also violated the bona fide needs statute by
extending periods of performance beyond 1 year and expending $1,092,888 of annual
appropriations outside their 1-year period of availability.

We recommend that CDC:

   	 identify any active contracts or task orders currently being administered as personal
      service contracts and take action to correct their administration,

   	 develop and implement policies and procedures to prevent CDC officials from

      administering task orders as personal service contracts, 


   	 determine whether the $1,092,888 expended outside the 1-year period of availability
      violated the Anti-Deficiency Act and take action to correct any such violations, and

   	 develop and implement policies and procedures to ensure compliance with appropriations
      statutes and acquisition regulations regarding obligating and expending funds.

In comments on our draft report, CDC disagreed that it administered task orders awarded to
Contractor A as personal service contracts and did not directly address our first recommendation.
Nevertheless, CDC described actions that it had taken or planned to take in response to our
second recommendation. CDC agreed with our last two recommendations.

CDC did not address the key elements of personnel services identified in our audit. Most
significantly, CDC did not address our finding that its employees had provided relatively
continuous supervision and control of onsite contractor personnel. CDC also did not address our
findings on onsite contractor performance, equipment and supplies furnished to contractor
personnel, services necessary to accomplish CDC’s mission, and services needed beyond 1 year.
When considered together, these findings demonstrate that CDC violated the FAR. We maintain
that CDC should identify any contracts or task orders currently being administered as personal
service contracts and take corrective action.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to call
me, or your staff may contact Lori S. Pilcher, Assistant Inspector General for Grants, Internal
Activities, and Information Technology Audits, at (202) 619-1175 or through email at
Lori.Pilcher@oig.hhs.gov. Please refer to report number A-04-08-01059 in all correspondence.


Attachment
Department of Health and Human Services
            OFFICE OF 

       INSPECTOR GENERAL 





 REVIEW OF THE CENTERS FOR 

   DISEASE CONTROL AND 

 PREVENTION’S COMPLIANCE 

 WITH APPROPRIATIONS LAWS 

      AND ACQUISITION 

REGULATIONS—CONTRACTOR A 





                       Daniel R. Levinson

                        Inspector General 


                         January 2010

                         A-04-08-01059

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                       EXECUTIVE SUMMARY

BACKGROUND

During fiscal years 2000 through 2008, the Centers for Disease Control and Prevention (CDC)
awarded more than $1.9 billion in service contracts to help accomplish its mission. Like other
Federal agencies, CDC is required to follow appropriations laws and the Federal Acquisition
Regulation (FAR) when acquiring services with appropriated funds.

This audit, which we initiated as a result of a congressional request, is the first in a series of
audits of CDC’s contracting practices. It focuses on a 2003 service contract that CDC awarded
to a small business referred to in this report as “Contractor A.” Under the contract, CDC
awarded Contractor A 149 task orders totaling $106 million from 2003 to 2008. Our review
covered eight of these task orders. The eight task orders called for severable services, which are
services that are recurring and continuing in nature and that are not intended to provide a specific
end product, such as a report. The eight task orders were valued at $18.9 million and required an
estimated 110 contractor personnel.

OBJECTIVE

Our objective was to determine whether CDC’s service contract and selected task orders
awarded to Contractor A complied with appropriations laws and acquisition regulations with
respect to competition, inherently governmental functions, pricing, personal services, and
contract funding.

SUMMARY OF FINDINGS

CDC’s service contract and eight sampled task orders awarded to Contractor A complied with
appropriations laws and acquisition regulations with respect to competition, inherently
governmental functions, and pricing. However, the task orders did not always comply with
appropriations laws and acquisition regulations with respect to personal service contracts and
contract funding. Specifically, CDC inappropriately administered all eight task orders as
personal service contracts. Additionally, for six of the eight task orders, CDC extended the
performance periods for severable services beyond the 1-year maximum statutory period. These
deficiencies occurred because CDC’s policies and procedures were not adequate to ensure
compliance with the prohibition on contracting for personal services and did not address funding
requirements for severable service contracts.

By using contractor personnel for personal services, CDC violated the FAR, which states that
obtaining personal services by contract circumvents civil service laws that require Government
employees to be hired through competitive appointment or other required procedures unless
Congress has authorized an exception. CDC also violated the bona fide needs statute by
extending periods of performance beyond 1 year and expending $1,092,888 of annual
appropriations outside their 1-year period of availability.




                                                 i
RECOMMENDATIONS

We recommend that CDC:

   	 identify any active contracts or task orders currently being administered as personal
      service contracts and take action to correct their administration,

   	 develop and implement policies and procedures to prevent CDC officials from

      administering task orders as personal service contracts, 


   	 determine whether the $1,092,888 expended outside the 1-year period of availability
      violated the Anti-Deficiency Act and take action to correct any such violations, and

   	 develop and implement policies and procedures to ensure compliance with appropriations
      statutes and acquisition regulations regarding obligating and expending funds.

CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS

In comments on our draft report, CDC disagreed that it administered task orders awarded to
Contractor A as personal service contracts and did not directly address our first recommendation.
Nevertheless, CDC described actions that it had taken or planned to take in response to our
second recommendation. CDC agreed with our last two recommendations. CDC’s comments
are included as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

CDC did not address the key elements of personal services identified in our audit. Most
significantly, CDC did not address our finding that its employees had provided relatively
continuous supervision and control of onsite contractor personnel. CDC also did not address our
findings on onsite contractor performance, equipment and supplies furnished to contractor
personnel, services necessary to accomplish CDC’s mission, and services needed beyond 1 year.
When considered together, these findings demonstrate that CDC violated the FAR. We maintain
that CDC should identify any contracts or task orders currently being administered as personal
service contracts and take corrective action.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                                   Page

INTRODUCTION.................................................................................................................... 1

          BACKGROUND ........................................................................................................... 1
              Contracting Responsibilities .............................................................................. 1
              Federal Laws and Regulations ........................................................................... 1
              Service Contract Awarded to Contractor A ....................................................... 3

          OBJECTIVE, SCOPE, AND METHODOLOGY ......................................................... 3
               Objective ............................................................................................................ 3
               Scope.................................................................................................................. 3
               Methodology ...................................................................................................... 4

FINDINGS AND RECOMMENDATIONS .......................................................................... 5

          PERSONAL SERVICES ............................................................................................... 5
               Federal Acquisition Regulation ......................................................................... 5
               Task Orders Administered as Personal Service Contracts................................. 6
               Inadequate Policies and Procedures on Personal Services ................................ 10
               Circumvention of Civil Service Laws................................................................ 10

          CONTRACT FUNDING ............................................................................................... 10
              Federal Laws and Regulations ........................................................................... 10
              Performance Periods Exceeding 1 Year ............................................................ 11
              Inadequate Policies and Procedures on Contract Funding Limitations ............. 12
              Violations of the Bona Fide Needs Statute ........................................................ 12

          RECOMMENDATIONS............................................................................................... 12

          CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS ............ 13

          OFFICE OF INSPECTOR GENERAL RESPONSE .................................................... 13

APPENDIXES

          A: TASK ORDER DETAILS

          B: CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS




                                                                    iii
                                         INTRODUCTION 


BACKGROUND 


The mission of the Centers for Disease Control and Prevention (CDC) is to promote health and
quality of life by preventing and controlling disease, injury, and disability. To help accomplish
its mission, CDC contracts for certain services, such as professional, administrative, and
technical assistance services. During fiscal years 2000 through 2008, CDC funding for service
contracts increased from $74 million to $370 million per year, for a total of $1.9 billion during
the 9-year period.

This audit, which we initiated as a result of a congressional request, is the first in a series of
audits of CDC’s contracting practices.

Contracting Responsibilities

CDC’s Procurement and Grants Office (PGO) is responsible for the award, administration, and
closeout of all CDC contracts. Within PGO, contracting officers are responsible for ensuring
effective contracting; ensuring compliance with contract terms; ensuring that contractors receive
impartial, fair, and equitable treatment; and determining the adequacy of contractor performance.

CDC’s centers, institutes, and offices (program offices) are the primary initiators of service
contracts. Contracting officers delegate certain administrative duties to program office
employees referred to as “contracting officers’ technical representatives” (project officers) and
“technical monitors.” As the contracting officers’ authorized representatives for administering
contracts and task orders, respectively, project officers and technical monitors are responsible for
ensuring proper Government oversight of contractors’ performance. Project officers and
technical monitors are not empowered to make any contractual commitments or to authorize any
contractual changes on the Government’s behalf.

CDC’s Financial Management Office is responsible for processing payments to contractors and
for maintaining records of invoices, payments, and supporting documents.

Federal Laws and Regulations

Federal agencies are required to follow appropriations laws and the Federal Acquisition
Regulation (FAR) when acquiring supplies and services with appropriated funds. Selected
requirements are summarized below.

Competition

The FAR states that under the Small Business Administration’s (SBA) 8(a) Business
Development Program, contracting officers may limit competition to eligible 8(a) contractors.
Pursuant to FAR 19.805-1(a)(1):




                                                   1

         . . . an acquisition offered to the SBA under the 8(a) Program shall be awarded on
         the basis of competition limited to eligible 8(a) firms if—(1) [t]here is a
         reasonable expectation that at least two eligible and responsible 8(a) firms will
         submit offers and that award can be made at a fair market price; and (2) [t]he
         anticipated total value of the contract, including options, will exceed $5.5 million
         for acquisitions assigned manufacturing North American Industry Classification
         System (NAICS) codes1 and $3.5 million for all other acquisitions.

Inherently Governmental Functions

FAR 7.503(a) states that “contracts shall not be used for the performance of inherently
governmental functions.” Inherently governmental functions include determining agency policy,
such as the content and application of regulations; determining budget policy, guidance, and
strategy; and directing and controlling Federal employees.

Fair and Reasonable Pricing

FAR 15.402 states that “contracting officers must—(a) purchase supplies and services from
responsible sources at fair and reasonable prices.”

Personal Services

FAR 37.104 prohibits agencies from awarding personal service contracts unless specifically
authorized by statute. The FAR characterizes a personal service contract as one in which an
employer-employee relationship is created between the Government and contractor personnel.
This relationship may be created by the contract terms or by subjecting contractor personnel to
relatively continuous supervision and control by agency employees during contract performance.

Contract Funding

The bona fide needs statute (31 U.S.C. § 1502) requires that “[t]he balance of an appropriation or
fund limited for obligation to a definite period is available only for payment of expenses properly
incurred during the period of availability or to complete contracts properly made within that period.”
Pursuant to the bona fide needs statute, agencies generally are required to fund severable service
contracts with funds that are current and available for the year in which performance takes place.2
However, pursuant to 41 U.S.C. § 253l, an agency may enter into a contract for severable
services for a period that begins in 1 fiscal year and ends in the next fiscal year if the contract
period does not exceed 1 year. Such contracts may be funded entirely with funds available in the
earlier year.



1
 Federal statistical agencies use the NAICS to classify business establishments for the purpose of collecting,
analyzing, and publishing statistical data related to the U.S. business economy. NAICS codes designate major
sectors of the economies of Mexico, Canada, and the United States.
2
 Severable services are services that are recurring and continuing in nature. Nonseverable services, which are
services to provide a specific end product (e.g., a report), cannot be subdivided into fiscal year segments.


                                                         2

The FAR reflects the bona fide needs statute, as well as the statutory exception. FAR 32.703-3
states that “[a] contract that is funded by annual appropriations may not cross fiscal years, except
in accordance with statutory authorization . . .” or when the contract is for a nonseverable
service.

Service Contract Awarded to Contractor A

In 2003, CDC awarded task order contracts to four businesses under SBA’s 8(a) program, a
business development program to help small, disadvantaged businesses compete in and gain
access to Federal and private procurement markets. The contracts called for management
consultation and technical assistance services in support of CDC-wide operations. Under the
four contracts, CDC issued 183 task orders totaling $135 million.

One of the four contractors (Contractor A) was awarded 149 task orders totaling $106 million.
Contractor A is a minority- and woman-owned professional services corporation certified by
SBA as an 8(a) small and disadvantaged business. Contractor A, which has offices in three
States, employs more than 300 personnel and has active contracts with approximately 500
consultants.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether CDC’s service contract and selected task orders
awarded to Contractor A complied with appropriations laws and acquisition regulations with
respect to competition, inherently governmental functions, pricing, personal services, and
contract funding.

Scope

Our audit covered CDC’s service contract with Contractor A (contract 200-2003-01396) and
eight task orders for severable services awarded under the contract between July 15, 2003, and
December 31, 2008. The eight task orders were valued at $18.9 million and required an
estimated 110 contractor personnel. (See Appendix A for details on the eight task orders.)

We did not review CDC’s overall internal control structure. We limited our internal control
review to obtaining an understanding of CDC’s policies and procedures for awarding and
administering contracts.

We performed our fieldwork at CDC in Atlanta, Georgia, from July 8, 2008, through March 31,
2009.




                                                 3

Methodology

To accomplish our objective, we:

       reviewed relevant Federal laws, regulations, and guidance;

       gained an understanding of CDC’s policies and procedures related to contract award and
        administration;

       gained an understanding of the contract administration responsibilities of PGO and
        program officials;

       conducted a risk assessment of the 149 task orders awarded to Contractor A and
        judgmentally selected3 8 task orders (task orders 12, 25, 34, 46, 105, 111, 121, and 128)
        for detailed review;

       reviewed documentation maintained by PGO, program offices, and the Financial
        Management Office related to the contract and the 8 task orders;

       reviewed the competitive procedures used to award the contract and the 8 task orders;

       assessed the procedures used to price and fund the 8 task orders;

       interviewed, as shown in Appendix A, Contractor A personnel and CDC officials to gain
        an understanding of the types of services provided under the 8 task orders and the extent
        to which:

             o	 contractor personnel performed inherently governmental functions,

             o	 CDC employees provided direction and supervision to contractor personnel, and

             o	 other elements of personal services existed in contract administration;

    	 reviewed the terms and conditions of, and subsequent modifications to, the 8 task orders
       to determine whether the periods of performance exceeded 1 year; and

    	 reviewed CDC’s financial records to quantify the payments made outside the 1-year
       periods of performance.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions

3
 Our selection factors included whether the task orders were competed, whether Contractor A was the only bidder,
and whether the task orders potentially included inherently governmental activities. We also considered the dollar
value of the task orders.


                                                         4

based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

CDC’s service contract and eight sampled task orders awarded to Contractor A complied with
appropriations laws and acquisition regulations with respect to competition, inherently
governmental functions, and pricing. However, the task orders did not always comply with
appropriations laws and acquisition regulations with respect to personal service contracts and
contract funding. Specifically, CDC inappropriately administered all eight task orders as
personal service contracts. Additionally, for six of the eight task orders, CDC extended the
performance periods for severable services beyond the 1-year maximum statutory period. These
deficiencies occurred because CDC’s policies and procedures were not adequate to ensure
compliance with the prohibition on contracting for personal services and did not address funding
requirements for severable service contracts.

By using contractor personnel for personal services, CDC violated the FAR, which states that
obtaining personal services by contract circumvents civil service laws that require Government
employees to be hired through competitive appointment or other required procedures unless
Congress has authorized an exception. CDC also violated the bona fide needs statute by
extending periods of performance beyond 1 year and expending $1,092,888 of annual
appropriations outside their 1-year period of availability.

PERSONAL SERVICES

Federal Acquisition Regulation

FAR 37.104 prohibits agencies from awarding personal service contracts unless specifically
authorized by statute. The FAR characterizes a personal service contract as one in which an
employer-employee relationship is created between the Government and contractor personnel.
This relationship may be created when contractor personnel are subject to relatively continuous
supervision and control by a Government officer or employee during contract performance.

The FAR provides that “[t]he sporadic, unauthorized supervision of only one of a large number
of contractor employees might reasonably be considered not relevant, while relatively continuous
Government supervision of a substantial number of contractor employees would have to be taken
strongly into account.” The FAR lists additional factors to aid in determining whether services
are personal in nature:

      The contractor performs onsite.

      The Government furnishes the principal tools and equipment.

      The services directly apply to an agency’s mission.

      The need for the type of service can be expected to last beyond 1 year.


                                               5

The FAR states that “the Government is normally required to obtain its employees by direct hire
under competitive appointment or other procedures required by the civil service laws. Obtaining
personal services by contract, rather than by direct hire, circumvents those laws unless Congress
has specifically authorized acquisition of the services by contract.”

Task Orders Administered as Personal Service Contracts

CDC administered all eight sampled task orders awarded to Contractor A as personal service
contracts, primarily by providing direct supervision and control of contractor personnel,
reviewing their timecards, and evaluating their performance. CDC also arranged for onsite
performance of work, furnished contractor personnel with equipment and supplies, used
contractor services to directly advance the agency’s mission, and expected the need for the
services to last more than 1 year.

Supervision of Contractor Personnel

Our interviews with 23 Contractor A personnel4 and with CDC program officials, as well as our
review of contract files, revealed that CDC employees maintained relatively continuous
supervision and control of contractor personnel who worked onsite at CDC. Such supervision
and control took the form of routine assignment of tasks to individual contractor personnel, often
on a daily basis. In some instances, CDC employees also reviewed and signed contractor
personnel timecards and/or evaluated the performance of contractor personnel.

           Routine Assignment of Tasks to and Control of Contractor Personnel

Of the 23 Contractor A personnel interviewed, 19 worked onsite. Of the 19 personnel, 9 stated
that CDC employees assigned tasks to them daily. Nine others did not specify how often they
received task assignments; however, four of these personnel reported that they performed routine
activities for CDC employees or that CDC employees were responsible for their day-to-day
supervision. The remaining individual, a contractor consultant, stated that a CDC employee
assigned his tasks on a weekly basis. In addition, 18 of the 19 onsite contractor personnel
reported that they had been supervised by CDC employees or that they reported to a CDC
supervisor. For example:

       	 A former contractor consultant, who had worked under task orders 34 and 128, stated that
          her daily tasks came directly from CDC officials.

       	 An administrative assistant under task order 128 stated that she reported to three CDC
          employees and that these employees assigned her daily tasks.

       	 A management and program analyst under task order 105 stated that she received daily
          assignments from the Chief of CDC’s Immunology and Pathogenesis Branch. The
          Branch Chief confirmed that she assigned work to contractor personnel on a daily basis


4
    Contractor A personnel included consultants under contract with Contractor A.


                                                           6

        and stated that the “contractor directly contacts me to request leave or indicate absences
        from work.”

    	 An administrative assistant under task order 46 stated that she reported directly to a CDC
       employee for her daily work activities.

    	 A contractor consultant under task order 12 reported that he performed several routine
       day-to-day activities for his “CDC supervisor.”

    	 A cost accountant under task order 111, while not specifying how often he received task
       assignments from CDC employees, stated that a CDC employee provided his day-to-day
       supervision.

    	 A health communications specialist under task order 128 stated that she reported to a
       CDC communications officer and that she was required to report to this individual when
       taking time off from work.

The CDC contracting officers associated with the eight sampled task orders agreed that the types
of supervision and control of contractor personnel that we found would represent prohibited
personal services. However, the contracting officers stated that they were not aware that such
supervision and control had occurred. They added that they relied on CDC project officers,
technical monitors, and other CDC officials to administer the day-to-day activities of the task
orders and that they did not have the resources to regularly monitor those activities.

        Approval of Contractor Personnel Timecards

From February 2004 until March 2008, CDC employees regularly signed the timecards of at
least 23 Contractor A employees and 3 consultants who worked under task orders 12, 34, and
128. Contractor A employees reported their time on semimonthly timecards provided by
Contractor A; consultants used their own timecards. Signing the timecards of contractor
personnel contributed to creating an employer-employee relationship.

On March 20, 2008, CDC implemented policies and procedures that prohibited CDC employees
from signing or reviewing contractor timecards. The contract files contained no Contractor A
personnel timecards signed by CDC employees after that date.

        Evaluation of the Performance of Contractor Personnel

Of the 19 onsite Contractor A personnel interviewed, 6 stated that CDC employees had evaluated
their performance.5 For example:

    	 A contractor consultant under task order 12 and a contractor employee under task order
       128 stated that CDC employees wrote their annual performance evaluations.

5
 The fact that CDC evaluated the performance of some contractor personnel surfaced during our interviews. We did
not specifically ask all interviewees whether CDC employees had evaluated their performance.


                                                       7

   	 A contractor employee under task order 25 reported that the CDC Chief Operating
      Officer evaluated her performance and reported it to Contractor A.

   	 Two contractor personnel under task order 105 stated that CDC employees conducted
      their performance evaluations and orally reported the results to Contractor A. However,
      both contractor personnel stated that Contractor A was ultimately responsible for their
      evaluations.

A project manager for Contractor A stated that Contractor A was responsible for evaluating its
employees’ performance. He also stated that Contractor A used input provided by CDC to
conduct performance evaluations.

CDC’s responsibility for evaluating a contractor is limited to reviewing the contractor’s overall
contract performance. By evaluating the performance of individual contractor personnel, CDC
took on Contractor A’s responsibility and contributed to creating an employer-employee
relationship.

Onsite Contractor Performance

CDC estimated that 94 (85 percent) of the 110 Contractor A personnel needed for the eight
sampled task orders would be required to work onsite at CDC offices and thus provided their
office space. Of the 23 Contractor A personnel interviewed, 19 (83 percent) stated that they
worked onsite.

Equipment and Supplies Furnished to Contractor Personnel

CDC provided onsite Contractor A personnel with equipment and supplies, including computers,
telephones, and other office equipment for the eight sampled task orders.

Of the 19 onsite Contractor A personnel interviewed, 18 reported that CDC had provided their
equipment and/or supplies. The remaining employee stated that CDC had not provided his
equipment and supplies. However, a CDC program official who worked with this employee
stated that CDC had provided a computer and various supplies to the employee. A Contractor A
program manager also stated that CDC had provided all equipment and supplies to onsite
Contractor A personnel. According to a CDC contracting officer, CDC had provided contractor
personnel with computers to ensure compliance with CDC information technology security
policies.

In addition, the statements of work for four of the eight sampled task orders stipulated that CDC
would provide contractor personnel with all necessary equipment and supplies. The statements
of work for the four remaining task orders stated that the contractor would be responsible for
providing necessary equipment and supplies. However, 10 onsite contractor personnel who
worked on the latter four task orders stated that CDC had, in fact, provided their equipment and
supplies.




                                                 8

Services Necessary To Directly Accomplish the Agency’s Mission

The task order statements of work showed that Contractor A’s services would be directly applied
to CDC’s integral efforts to further its mission and that CDC used the task orders to supplement
its Government staff. For example:

       	 Task orders 12, 34, and 128, all for work at the Office of Public Health Genomics, stated:
          “It is increasingly impossible for existing staff to meet current workload requirements
          . . . .” The task orders further stated that “staff resources are not adequate to assure
          timely implementation of essential activities . . . . Onsite program operations and
          management assistance is required as a critical staffing adjunct . . . .”

       	 Task order 105 stated: “The objective of the task is to maintain services critical to the
          mission of the Influenza Division, NCIRD [the National Center for Immunization and
          Respiratory Diseases] and CDC.” The task order added that CDC had “no qualified staff
          available to perform these functions.”

Furthermore, CDC employees stated that the contract services were integral in furthering the
agency’s mission. For example, a technical monitor responsible for two sampled task orders
stated that Contractor A’s work was critical to CDC’s mission. Similarly, a technical monitor for
another task order6 stated that Contractor A personnel represented 80 percent of the personnel in
her branch and that her branch could not operate without the assistance of the contractor
personnel.

Services Needed Beyond 1 Year

The terms of the service contract and eight sampled task orders awarded to Contractor A
indicated that CDC’s need for the services was long term and ongoing (beyond 1 year). The
original term of the contract consisted of a 1-year base period of performance and four 1-year
option periods. The contract and option periods covered the 5-year period from July 2003
through December 2008. CDC later modified the contract terms to allow task order performance
up to 2 years beyond the expiration date of the contract.7 Additionally, CDC exercised at least
one 1-year option period, awarded a follow-on task order, and/or extended the period of
performance beyond 1 year for each of the sampled task orders.8

Some task order statements of work also revealed that CDC expected a long-term need for the
services. For example, in discussing the background and need for contractor services under task
orders 12, 34, and 128, CDC expressly stated that it needed the contractor’s services “on a long-
term, ongoing basis.”

6
 Task order 89 was not part of our sample. We interviewed this individual because of her role in the award of the
service contract.
7
    This extension applied only to task orders issued before the December 31, 2008, expiration date.
8
 During our review, we learned that CDC had awarded four new follow-on service contracts that, together with
options, will span a 7-year period of performance.


                                                            9

Inadequate Policies and Procedures on Personal Services

To avoid contracting for personal services, CDC had implemented certain policies and
procedures, such as:

   	 requiring contractor personnel to wear badges that identified them as contractors,

   	 providing training on the “do’s and don’ts” concerning the treatment of contractor
      personnel, and

   	 prohibiting CDC employees from signing contractor timecards.

However, these policies and procedures failed to prevent CDC from administering the eight
sampled task orders as personal service contracts.

CDC’s policies and procedures, issued in May 1986 and last updated in July 2000, were not
consistent with the FAR. CDC’s policies defined personal services as services “performed by
commercial service personnel who require direct Government supervision and who perform an
inherent Government function.” The FAR, however, establishes no link between inherently
governmental functions and personal services. Further, the FAR defines personal services in
terms of the employer-employee relationship created between Government personnel and
contractor personnel, provides various descriptive elements as an aid for determining whether
services are personal services (as previously discussed in this report), and provides that the
Government’s control and supervision of contractor personnel is the key element in determining
whether services are personal in nature.

Circumvention of Civil Service Laws

By using contractor personnel for personal services, CDC violated the FAR, which states that
obtaining personal services by contract in effect circumvents civil service laws. Civil service
laws require Government employees to be hired through competitive appointment or other
required procedures unless Congress has authorized an exception. Congress had not specifically
authorized CDC to contract for personal services.

CONTRACT FUNDING

Federal Laws and Regulations

The bona fide needs statute (31 U.S.C. § 1502) requires that “[t]he balance of an appropriation or
fund limited for obligation to a definite period is available only for payment of expenses properly
incurred during the period of availability or to complete contracts [task orders] properly made within
that period.” Pursuant to the bona fide needs statute, agencies are generally required to fund
severable service contracts with funds that are current and available for the year in which
performance takes place. However, pursuant to 41 U.S.C. § 253l, an executive agency may enter
into a contract for procurement of severable services for a period that begins in 1 fiscal year and
ends in the next fiscal year if the contract period does not exceed 1 year. Such contracts may be



                                                  10 

funded entirely with funds available in the earlier year (the year in which the contract was
awarded).

The FAR reflects the bona fide needs statute, as well as the statutory exception. FAR 32.703-3
states that “[a] contract that is funded by annual appropriations may not cross fiscal years, except
in accordance with statutory authorization . . .” or when the contract is for nonseverable services.

The Anti-Deficiency Act (31 U.S.C. § 1341) provides that officers or employees of the
Government may not make or authorize an obligation in excess of the available funds or in
advance of appropriations.

Performance Periods Exceeding 1 Year

CDC extended the periods of performance beyond 1 year for six of the eight sampled task orders.
These extensions were funded using fiscal year funds outside their periods of availability. The
extensions ranged from 6 days to 1 year beyond the original 1-year performance periods. For
example:

    	 In July 2007, CDC awarded task order 121, which called for one full-time consultant for
       a 1-year base period (July 18, 2007, through July 17, 2008) and two 1-year option
       periods. CDC fully funded the base period of the task order at the full-time level of
       performance. In May 2008, Contractor A management informed the CDC contracting
       officer that the consultant was needed only on a part-time basis and that, as a result,
       funding was still available under the base year. Contractor A requested a 1-year, no-cost
       extension to the base period of performance to continue the consultant’s part-time work
       on the task order. The CDC contracting officer modified the terms of the task order as
       Contractor A requested.

    	 In November 2004, CDC awarded task order 25, which specified a performance period of
       November 2004 through October 2005. In November 2005, the CDC contracting officer
       extended the performance period by 2 months. According to the contracting officer,
       additional services were needed, but funding was not adequate to exercise a new option
       period or issue a new task order because of a continuing resolution.

    	 In February 2004, CDC awarded task order 12, which specified a performance period of
       March 2004 through February 2005. In March 2005, the CDC contracting officer
       extended the period of performance by 3 months. In May 2005, another contracting
       officer extended the period of performance by an additional 15 days. One CDC
       contracting officer stated that she thought that the services were nonseverable
       expert/consultative services that were not subject to the funding limitations of severable
       services.9



9
 The statement of work referred to the services generally as “consultative” services but also described them as
“non-technical” and “administrative.” The statement of work also did not specify an end product. Thus, the
services met the definition of severable services.


                                                         11 

CDC contracting officers issued similar extensions beyond 1-year periods of performance for
task orders 34, 46, and 111.

Inadequate Policies and Procedures on Contract Funding Limitations

CDC inappropriately extended the periods of performance for severable service contracts beyond
the 1-year period of availability of the funds because it had not developed and implemented
adequate policies and procedures to ensure compliance with appropriations statutes and
acquisition regulations on obligating and expending funds.

Specifically, CDC’s policies and procedures did not address funding requirements for severable
and nonseverable service contracts, nor did they require a determination of whether contracted
services are severable or nonseverable before funding a contract action. CDC’s policies and
procedures also did not address the funding of contract extensions that cause periods of
performance to exceed 1 year and did not prohibit the use of funds associated with a prior-year
appropriation for costs incurred in a subsequent year.

The PGO Director stated that CDC was in the process of improving its policies and procedures
on funding contracts. However, CDC was awaiting the results of a Departmentwide review of
contract funding issues before implementing new policies and procedures.

Violations of the Bona Fide Needs Statute

By extending periods of performance beyond 1 year, CDC expended $1,092,888 of annual
appropriations outside their 1-year period of availability and violated the bona fide needs statute
in administering six task orders (12, 25, 34, 46, 111, and 121). Such expenditures also could
violate the Anti-Deficiency Act if sufficient funds from applicable appropriations are not
available to cover the expenditures.

CDC may resolve the violations of the bona fide needs statute by adjusting its accounts
(assuming sufficient funds are available) and recording the expenditures against the correct fiscal
year appropriations. This will require CDC to research the proper use of funds totaling
$1,092,888 and to determine the correct period of availability for those funds.

RECOMMENDATIONS

We recommend that CDC:

   	 identify any active contracts or task orders currently being administered as personal
      service contracts and take action to correct their administration,

   	 develop and implement policies and procedures to prevent CDC officials from

      administering task orders as personal service contracts, 


   	 determine whether the $1,092,888 expended outside the 1-year period of availability
      violated the Anti-Deficiency Act and take action to correct any such violations, and



                                                12 

   	 develop and implement policies and procedures to ensure compliance with appropriations
      statutes and acquisition regulations regarding obligating and expending funds.

CENTERS FOR DISEASE CONTROL AND PREVENTION COMMENTS

In comments on our draft report, CDC disagreed that it administered task orders awarded to
Contractor A as personal service contracts. CDC did not directly address our recommendation to
identify any contracts or task orders currently being administered as personal service contracts
and take corrective action. Nevertheless, CDC described actions that it had taken or planned to
take in response to our recommendation to develop and implement policies and procedures to
prevent CDC officials from administering task orders as personal service contracts. CDC agreed
with our recommendations relating to contract funding and described its ongoing and planned
corrective actions. CDC’s comments are included as Appendix B.

OFFICE OF INSPECTOR GENERAL RESPONSE

CDC did not address the key elements of personal services identified in our audit. Most
significantly, CDC did not address our finding that its employees had created an improper
employer-employee relationship by providing relatively continuous supervision and control of a
significant number of contractor personnel who worked onsite at CDC. For example, 13 of 19
contractor employees interviewed reported that CDC employees had assigned them daily tasks or
directed their routine activities. Further, 18 of 19 contractor personnel interviewed reported that
they had been supervised by CDC employees, and 6 stated that CDC employees had evaluated
their performance. CDC also did not address our findings on onsite contractor performance,
equipment and supplies furnished to contractor personnel, services necessary to accomplish
CDC’s mission, and services needed beyond 1 year.

When considered together, our findings demonstrate that CDC violated the FAR by
administering task orders as personal service contracts. We maintain that CDC should identify
any contracts or task orders currently being administered as personal service contracts and take
corrective action.




                                                13 

APPENDIXES 

                                                      APPENDIX A: TASK ORDER DETAILS 




                                                                                                                                       CDC1 Personnel Interviewed


                                                                                         Estimated         Number of                                                   Other
                                                                                         Number of         Contractor                                                 Project/
 Task                                                   Period of         Awarded        Contractor        Personnel        Contracting       Project    Technical   Program
Order                      Purpose                     Performance        Dollars2       Personnel        Interviewed3        Officer         Officer4   Monitor     Personnel
        To support operations of CDC’s Office            3/01/2004–
   12                                                                       $937,838              10                   2             Yes          Yes         No5          No
        of Genomics and Disease Prevention               6/15/2005

        To provide professional assistance to
        CDC’s Office of the Chief Operating              11/4/2004–
   25                                                                        158,999                2                  1             Yes          Yes        Yes6          No
        Officer related to planning special              12/31/2005
        events and activities
        To support operations of CDC’s Office            6/16/2005–
   34                                                                      3,680,016              13                   4             Yes          Yes         Yes          No
        of Genomics and Disease Prevention               9/12/2007

        To provide operational support to               12/22/2005–
   46   CDC’s Division of Health                                             813,256                5                  3             Yes          Yes         No7         Yes8
                                                        10/29/2008
        Communication, Office of Director
        To provide technical assistance and
        support services critical to the mission         9/30/2006–
  105                                                                      2,790,823              19                   4             Yes          Yes         Yes         Yes
        of CDC’s National Center for                     9/29/2008
        Immunization and Respiratory Diseases
        To assist CDC’s Financial Management
        Office with budgeting, financial                 4/6/2007–
  111                                                                      3,906,238              34                   4             Yes          Yes         Yes          No
        systems, program analysis, accounting            6/30/2009
        standards, and accounts payable
        To provide management support and
        consultation to CDC’s Division of                7/18/2007–
  121                                                                        138,352                3                  1             Yes          Yes         Yes         Yes
        Laboratory Systems in managing its               7/17/2009
        personnel requirements
        To support operations of CDC’s Office            9/13/2007–
  128                                                                      6,474,373              24                   9             Yes          Yes         Yes          No
        of Public Health Genomics                        9/12/2009


            Total                                                        $18,899,895             110                  28




            1
                CDC is the Centers for Disease Control and Prevention. 

            2
                Awarded dollar values reflect obligated funding.


            3
                Some contractor personnel were involved in multiple task orders.


            4
                The project officers were responsible for administering the service contract and did not work on individual task orders.


            5
                The individual no longer worked at CDC.


            6
             The individual was listed as the cotechnical monitor on the award document. The technical monitor listed on the award document denied any 

            involvement in this task order.


            7
                The individual listed as the technical monitor on the award document could not confirm his involvement in this task order.


            8
                The individual was a program manager in CDC’s Management Analysis and Services Office.

                                                                                                                 Page 1 of 4

        APPENDIX B: CENTERS FOR DISEASE CONTROL AND
                    PREVENTION COMMENTS

     DfPAltlMEN T OF HEALTH So HUMA N S[ItVIC[ S 	                                     PUblIC Health ServK::e



                                                                                      Cen le's lor Oisease Canual
                                                                                         and Prevenl;OrJ (CDC)
                                                                                       Allanla GA 30333



                                                                                            OCT     71001

TO: 	             Daniel R Levinson 

                  Inspector General 


FROM: 	           Director, Centers for Disease Control and Prevention 

                  Administrator, Agency for Toxic Substances and Disease Regimy 


SUBJECT: 	 CDC Response to Office of Inspector General (010) Draft Report on CDC's Compliance
           with Appropriations Law and Acquisition Regulations, Report No. A-04-08-1 059 dated
           July 2009

DATE: 	          October 7, 2009

                                            EXECUTIVE SUMMARY

lbis audit was initialed as a result of a congressional request; it was the first in a series of audi ts of
CDC's contracting practices. It focu ses on a 2003 service con tract                                  I
business. Under the multiple award contracts, CDC awarded one contract
_            for a total of 149 task orders totaling $106 million from 2003                            covered
eight task orders for services which were valued at S 18.9 million and required an estimated 110
contractor personnel.
                                                OBJECTIVE



!!!!!~W!''!~ tO[~~d~"~'~nn~:i ":'~":'lh::':thr;'~t~C~D
                        complied with
                         I	
                                                ' ~~C~':':~;,rv
                                                          : i ce
                                                           laws contract and selectcd
                                                                and acquisition        task orders
                                                                                 regulations       awardedtoto
                                                                                             with respect
                                                       , pricing, personal services, and contract funding.

Office orthe Inspector General (O IG) Reco mmendations:
CDC's service contract and eight sampled task orders awarded to              complied with appropriations
laws and acquisition regulations with respect to competition, inherently governmental functions, and
pricing. However, the task orders did not always comply witt! appropriations law and acquisition
regulations with respect to personal service contracts and contract funding. Specifically, in some
instances, CDC's programmatic administration of all eight tas k orders was pcrfonned as if they we re
personal service contracts. Additionally, for six of the eight task orders, CDC extended the perfonnance
periods for severable services beyond the one-year maximum statutory period. These deficiencies
occurred because CDC's program personnel were not adequately trained to ensure compliance with the
prohibition on contracting fo r personal services. Additionally. CDC's policies and procedures did not
adequately address funding requireme nts fo r contracts that contain both severable and nonseverable
portions.




 OIG note: 	 We have deleted the name of the contractor from this appendix.
                                                                                                   Page 2 of 4




The HHS 010 made the following recommendations in its draft report: (I) Identify any active contracts
or task orders currently being administered as personal service contracts and take aClion to correct their
administration; (2) Develop and implement policies and procedures 10 prevent CDC officials from
administering task orders as personal service contracts; (3) Determine whether the $1,092,888 expended
outside the one-year period of availability violated the Anti-Deficiency Act and take ac tion to correct
any such vio lations; and (4) Develop and implement policies and p rocedures to ensure compliance with
appropriations.

C DC Response:

(I) Identify any actil'c contrac ts or tas k orders cur rently being administered as personal service 

contrac ts a nd ta ke actio n to correct their administration. 


The contract in question was neither structured nor administered as a personal services contract by the
CDC. The subject contract was one of four contracts for Management Consultation and Technical
Assistance (MCTA) services under a CDC-wide multiple-award, 8(a) competitive small business set­
aside. None of the contracts. or the subsequent task orders. were structured or issued as personal
services contracts. No ne of the Statements of Work (SOW) were writte n as personal services.

The rules governing personal services have been conveyed to the CDC staff via CDC-wide e-mail
distributions and various training sessions and presentations. The CDC did not make recommendations
regarding the payor benefits accru ing to contractor employees. Contractor employees were not given
technical di rection by CDC Contracting Officer Technical Representatives (COTRs) that fell outside the
contract's SOW, and the work performed by contractor employees was as defined in the contract 's
SOW. CDC has also implemented safeguards against inadvertent personal services by issuing policy
advisories regarding improprieties such as timecard validation and providing performance appraisal
input on contractors' employees. and CDC policies require contractor employees be clearly identified as
such on e-mail signature lines and recorded telephone messages so thai they are clearly distinguished
from Federal employees.

The example of a CDC supervisor contributing to a contractor employee's annual appraisal or
interfacing in some way that would seem to taint the relationship with elements of personal services
does not mean the contracts were administered as personal services. We believe this conduct by a CDC
employee is the exception and not the rule. We recognize that there may be instances where the actions
of federal employees may have contributed to creating the appearance of one or more personal services
indicators. but the totality of these circumstances do not rise to the level of the contract relationship
being for personal services, and we do not believe the contracts were regularly administered as personal
services.

Nevertheless, the CDC will continue to be vigilant and communicate the proper conduct to government
representatives involved in these contracts. and the current cenification program required of COTRs will
supplement continued training and policy to rcduce these instances.

(2) Develop a nd implem ent policiu a nd procedures to pre vent C DC officia ls from administering
task ord ers as personal service contrac ts.

CDC has been proactive in the issuance of guidance and training on the topic of personal services. To
prevent CDC officials from monitoring contractual work as if a contract were for pe rsonal services,



                                                   · 2·
                                                                                                     Page 3 of 4




C DC has issued a series of policy advisories, conducted training, and in coordination with our human
resources office, posted specific guidance on personal services on the CDC intranet, including policy
guidance on contnlctor identification, and timecard processing .

Concerning this specific contract, on April 15, 2009, during an Open HOllse event for the Management
Consulting and Technical Assistance (MeT A) contracts, pao gave a presentation to CDC sUlff
members in which the issue of personal services was specifically addressed. [\ was clearly Staled that
personal services were prohibited under the lenns and conditions or the MeTA contracts.

In addition, pao routinely addresses personal services through training. Provided below is a sample of
CDC entilies that recently received training which included the topic of personal sen'iccs:

    1) Management OfficerlSlaffOffice Directors, September 4, 2008
    2) Deputy Chief Operating Office, September 10, 2008
    3) Office of Workforce and Career Development (OWCD), August 20, 2008
    4) Coordinating Center for Health Promotion (CoCHP) Senior StafT, September II, 2008
    5) Office o f Healt h and Safety, October 30 2008
    6) Labor Management Cooperati ve Council, Nove mber 2008
    7) Management lnfonnation Systems Office (MISO), January 7, 2009
    8) Coordinating Center for Environme ntal Health and Injury Prevcntion (CCEHIP),
       March 23, 2009
    9) Nati onal Institute for Occupational Safety and Health (NIOSH), May I I. 2009

Additionall y, the CDC policy on personal services will be updated and re-issued in FY 2010. We plan to
make the COTR respons ible for ensuring that program officia ls that in teract with the contractors directly
are aware of the policy.

(3) Determine whether o r not the 51,092,888 expended outside the o ne-year period of availahility
violated t he Anti-Deficiency Act a nd take actio n to correct any such violations

CDC is in the process of adjUsting its accounts to properly record funds expended outside the I- year
peri od o f availability. Sufficient funding is available for these adjustments; thcreforc, CDC did not
violate the Anti-Deficiency Act.

(4) Develop a nd implement policies a nd procedures to ens u re complia nce with approp r iations
statutes a nd acquis ition re!!ulation s regardin!! obliga tin e. and ex p end ing funds.

In order to ensure adhe rence to appropriation laws and acquisiti on regulations, CDC will develop and
intplement policies and procedures to comply with the recent changes to the HHS acquisition guidance.
A Standard Operating Procedure is being drafted that wi ll require CDC contracting officers to clearly
iden tify and document the severability or nonscverability of proposed work aI the outset of the contract
or task order, as well as the appropriate level o f funding. A lso, although the OIG report identified the
services in the task orders as severable, CDC believes the SOWs could have been more clear regarding
the severable or nonseverable nature of the work. For example, the requirements could have identified
specific end products with due dates as applicable. In the future, C DC will make efforts to tmin
program officials to write better SOWs wi th clearly defined requirements and end products as
appropriate.




                                                   - 3­
                                                                                                     Page 40f4




In addition, Appropriations Law training will cont inue to be offered to contracting and financial
personnel at CDC. In coordination with the Financial Management Office (FMO), PGD has had
approximately 90% of its staff attend formal Appro priations law training in the past 18 months. We
also have continual acquisition training planned for OUf em ployees. POO. in collaboration wi th the
Program Offices and FMO. is carefully reviewing current and future acquisition plans for the proper
funding methodology (i ncremental fundi ng or full fundi ng) in relation \0 severability determinations.
Severability determinations wi ll be documented clearly in the acquisition cycle and reminders to the
p,,,,u,,m'" ,"ff will b< po,,,d ~'" ,h"kli".

                                                  'homas R. Frieden,




                                                   ... 

